NO. 20-

IN THE

SUPREME COURT
OF THE UNITED STATES
GREGORY ROBERSON,
CHARLES MATTHEWS,
DOROTHY ROBINSON,
v.

Petitioners,

UNITED STATES OF AMERICA,
Respondents

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

HEIDI R. FREESE, ESQ.
Federal Public Defender
Middle District of Pennsylvania

FREDERICK W. ULRICH, ESQ.
Assistant Federal Public defender
Tammy L. Taylor, Esq.
Staff Attorney

Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
fritz_ulrich@fd.org
Counsel for Petitioners
May 4, 2021

I, Frederick W. Ulrich, Esquire, a member of the Bar of this Court, hereby
certify that on this 4th day of May, 2021, copies of the Motion for Leave to Proceed
in Forma Pauperis and the Petition for a Writ of Certiorari in the above-captioned
case were hand delivered and/or mailed, first-class postage prepaid, to the
following:
ELIZABETH PRELOGER, ESQUIRE
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue
Washington, DC 20530

PATRICIA S. DODSZUWEIT, CLERK
United States Court of Appeals
for the Third Circuit
601 Market Street, Room 21400
Philadelphia, PA 19106

STEPHEN R. CERUTTI, ESQUIRE
United States Attorney’s Office
stephen.cerutti@usdoj.gov
I further certify that I am a member of the Bar of this Court and that all
parties required to be served have been served.
Respectfully submitted,
/s/ Frederick W. Ulrich
FREDERICK W. ULRICH
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Attorney ID# PA44855
Counsel for Petitioners,
Date: May 4, 2021

